<html>
<title> - OPEN HEARING: NOMINATIONS OF: VICE ADMIRAL JOSEPH MAGUIRE USN (RET.) TO BE DIRECTOR, NATIONAL COUNTERTERRORISM CENTER;AND ELLEN E. MCCARTHY TO BE ASSISTANT SECRETARY FOR INTELLIGENCE AND RESEARCH, DEPARTMENT OF STATE</title>
<body><pre>[Senate Hearing 115-580]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 115-580

               OPEN HEARING: NOMINATIONS OF: VICE ADMIRAL
               JOSEPH MAGUIRE USN (RET.) TO BE DIRECTOR,
                 NATIONAL COUNTERTERRORISM CENTER; AND
                   ELLEN E. MCCARTHY TO BE ASSISTANT
                SECRETARY FOR INTELLIGENCE AND RESEARCH,
                          DEPARTMENT OF STATE

=======================================================================

                                HEARING

                               BEFORE THE

                    SELECT COMMITTEE ON INTELLIGENCE

                                 OF THE

                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                        WEDNESDAY, JULY 25, 2018

                               __________

      Printed for the use of the Select Committee on Intelligence
      
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]     
      


        Available via the World Wide Web: http://www.govinfo.gov
        
        
                                __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
30-958 PDF                  WASHINGTON : 2019                     
          
-----------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).E-mail, 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="5730273817342224233f323b277934383a79">[email&#160;protected]</a>                        
        
        
        
                    SELECT COMMITTEE ON INTELLIGENCE

           [Established by S. Res. 400, 94th Cong., 2d Sess.]

                 RICHARD BURR, North Carolina, Chairman
                MARK R. WARNER, Virginia, Vice Chairman

JAMES E. RISCH, Idaho                DIANNE FEINSTEIN, California
MARCO RUBIO, Florida                 RON WYDEN, Oregon
SUSAN COLLINS, Maine                 MARTIN HEINRICH, New Mexico
ROY BLUNT, Missouri                  ANGUS KING, Maine
JAMES LANKFORD, Oklahoma             JOE MANCHIN III, West Virginia
TOM COTTON, Arkansas                 KAMALA HARRIS, California
JOHN CORNYN, Texas
                 MITCH McCONNELL, Kentucky, Ex Officio
                  CHUCK SCHUMER, New York, Ex Officio
                    JOHN McCAIN, Arizona, Ex Officio
                  JACK REED, Rhode Island, Ex Officio
                              
                              ----------                              
                      Chris Joyner, Staff Director
                 Michael Casey, Minority Staff Director
                   Kelsey Stroud Bailey, Chief Clerk
                                
                                CONTENTS

                              ----------                              

                             JULY 25, 2018

                           OPENING STATEMENTS

Burr, Hon. Richard, Chairman, a U.S. Senator from North Carolina.     1
Warner, Mark R., Vice Chairman, a U.S. Senator from Virginia.....     3

                               WITNESSES

Vice Admiral Joseph Maguire, USN (Ret.), Nominated to be 
  Director, National Counterterrorism Center.....................     5
    Prepared statement...........................................     8
Ellen E. McCarthy, Nominated to be Assistant Secretary for 
  Intelligence and Research, Department of State.................    12
    Prepared statement...........................................    15

                         SUPPLEMENTAL MATERIAL

Nomination material for Joseph Maguire
    Questionnaire for Completion by Presidential Nominees........    34
    Additional Prehearing Questions..............................    52
    Additional Prehearing Questions for the Record...............    66
Nomination material for Ellen E. McCarthy
    Questionnaire for Completion by Presidential Nominees........    73
    Additional Prehearing Questions..............................    88
    Additional Prehearing Questions for the Record...............   118

 
                   OPEN HEARING: NOMINATIONS OF: VICE ADMIRAL 
                JOSEPH MAGUIRE USN (RET.) TO BE DIRECTOR, NATIONAL
                 COUNTERTERRORISM CENTER;AND ELLEN E. MCCARTHY TO BE
                      ASSISTANT SECRETARY FOR INTELLIGENCE
                         AND RESEARCH, DEPARTMENT OF STATE

                              ----------                              


                        WEDNESDAY, JULY 25, 2018

                                       U.S. Senate,
                          Select Committee on Intelligence,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:43 a.m., in 
Room SH-216, Hart Senate Office Building, Hon. Richard Burr 
(Chairman of the Committee) presiding.
    Present: Senators Burr, Warner, Collins, Blunt, Lankford, 
Cotton, Cornyn, Feinstein, Wyden, King, and Harris.

   OPENING STATEMENT OF HON. RICHARD BURR, CHAIRMAN, A U.S. 
                  SENATOR FROM NORTH CAROLINA

    Chairman Burr. I'd like to call this hearing to order, and 
I'd like to welcome our witnesses today: Vice Admiral Joseph 
Maguire, President Trump's nominee for Director of the National 
Counterterrorism Center; and Ellen McCarthy, President Trump's 
nominee for Assistant Secretary for Intelligence and Research. 
Congratulations to both of you on your nominations, and I want 
to thank both of you for your years of honorable service to the 
United States.
    I'd like to start by recognizing the family that you've 
brought with you today. Vice Admiral Maguire, I understand you 
have your wife Kathy, soon to do some intervention this 
afternoon at house shopping.
    Admiral Maguire. Yes, Chairman. Yes, Mr. Chairman.
    Chairman Burr. As well as your daughter Catherine, your son 
Dan, and your daughter-in-law Jackie. Welcome to all of you.
    Ms. McCarthy, I believe you have your husband, Gordon. He's 
been through similar of these before and we're thankful--he's 
here along with your children Liam----
    Ms. McCarthy. And Eileen.
    Chairman Burr [continuing]. And Eileen, and your mother-in-
law Dawn Hannah. Welcome to all of you.
    I want to thank you for the support of these nominees. I'm 
confident that they would not be here if it wasn't for your 
years of encouragement and, potentially more importantly, your 
patience.
    Our goal in conducting this hearing is to enable the 
committee to consider Vice Admiral Maguire's and Ms. McCarthy's 
qualifications and to allow for thoughtful deliberation by our 
members.
    The witnesses each have already provided substantive 
written responses to numerous questions presented by the 
committee and its members. Today, of course, members will be 
able to ask additional questions and hear directly from the 
nominees.
    Vice Admiral Maguire graduated from Manhattan College and 
received his master's degree from the Naval Postgraduate 
School. He then served 36 years in the United States Navy as a 
Navy special warfare officer.
    During that time, he commanded at every level, serving as 
the commanding officer of the Naval Special Warfare Center and 
SEAL Team 2, as well as with the Naval Special Warfare Command. 
From 2007-2010, Vice Admiral Maguire served as the deputy 
director for strategic and operational planning at NCTC.
    Following his government service, he served as Vice 
President at Booz Allen, leading Booz Allen's efforts to 
support the special operations community.
    The Vice Admiral currently serves as the President and CEO 
of the Special Operations Warrior Foundation. Thank you for 
that, Admiral.
    Ms. McCarthy earned her undergraduate degree from the 
University of South Carolina and her master's degree in public 
policy from the University of Maryland. Earlier in her career, 
Ms. McCarthy served as an intelligence research specialist for 
the United States Atlantic Command, the chief of intelligence 
operations and policies for the United States Coast Guard, and 
then as director of human capital management in the Human 
Capital Management Office in the Office of the Undersecretary 
of Defense for Intelligence.
    Ms. McCarthy served as the President of the Intelligence 
and National Security Alliance from 2008 until 2012, and then 
as the chief operating officer of the National Geospatial 
Intelligence Agency from 2012 to 2015.
    Ms. McCarthy currently serves as the vice President for 
intelligence analytics at Noblis, an independent non-profit 
science and technology organization that serves Federal law 
enforcement and intelligence agency clients.
    Vice Admiral Maguire, you've been asked to lead the NCTC at 
a time when we're facing threats from state and non-state 
actors alike, while we're engaged in a robust debate at home on 
the scope and scale of intelligence collection and what 
authorities are right, appropriate and lawful.
    I trust that you'll speak truth to power as the Director of 
National Intelligence works through some incredibly complex and 
divisive issues.
    Ms. McCarthy, it's important that the leader at the State 
Department's intelligence community component engage in ongoing 
and substantive work with the rest of the intelligence 
community. I trust that your leadership of I&R will only 
increase that collaboration and improve its contribution to the 
IC.
    The committee will ask both to be responsive, transparent 
and timely in our interactions. These are absolutely necessary 
conditions for us to conduct effective and real-time oversight.
    As I've mentioned to other nominees during their 
confirmation hearing, I can assure you that this committee will 
continue to faithfully follow its charter and conduct vigorous 
and real-time oversight over the intelligence community, its 
operations and its activities. We will ask difficult and 
probing questions of you and your staff, and we expect honest, 
complete, and timely responses.
    I enjoyed meeting with both of you and discussing your 
qualifications and reasons for pursuing public service. I'm 
confident in your ability to lead NCTC and I&R, and I look 
forward to supporting your nominations and ensuring their 
consideration without delay.
    I want to thank both of you again for being here, for your 
years of service to our country. And I look forward to your 
testimony.
    I'll now recognize the Vice Chairman for any comments he 
might like to make.

OPENING STATEMENT OF HON. MARK R. WARNER, VICE CHAIRMAN, A U.S. 
                     SENATOR FROM VIRGINIA

    Vice Chairman Warner. Thank you, Mr. Chairman. I want to 
echo your comments and welcome our nominees.
    Vice Admiral Maguire, it's good to see you. I enjoyed our 
visit. Ms. McCarthy, welcome as well. You've both been 
nominated to two of the most important positions in the 
intelligence community at obviously a critical juncture for our 
country. You both have long and impressive records of 
achievement, and I applaud your willingness to once again 
provide public service.
    The NCTC is the IC's top organization for tracking and 
countering the continuing threat from terrorism. We know that 
we still have many men and women on the front line in the fight 
against terrorism, and it only takes one slip-up for awful 
things to happen.
    As we discussed, Admiral, though, your job and your ability 
to do your job is going to be only as good as your ability to 
maintain a strong relationship with our allies and partners. 
Obviously, during this time period, when it appears at times 
our President is more interested in punching our adversary and 
allies--or punching our allies in the nose rather than our 
adversaries, I think building those relationships and keeping 
them strong is going to be terribly important.
    Ms. McCarthy, the State Department's Bureau of Intelligence 
and Research is a small but critical component of the IC. One 
only has to think back to the intelligence assessments on 
Iraq's WMD to recall that it was I&R that urged a note of 
caution during that time. And truth was, I&R was right and most 
of the rest of the community was wrong. Again, it's going to be 
very important that you continue to provide that support for 
the men and women who serve in the State Department all 
around--all around the world.
    One of the things about this committee I'm so proud of is 
that we do work in a common pattern, but one of the things that 
I'm going to look for from both of you is an ironclad 
commitment that the men and women who will be working for both 
of you will be empowered to continue to assess and analyze 
intelligence upon which our Nation depends, free from political 
interference.
    We've talked about this in the past. It is more important 
than ever that the intelligence community feels they have the 
freedom to speak truth to power. Now, challenges may be if the 
power doesn't listen to the truth at this point, but our job is 
still to make sure truth to power regardless of other--
regardless of any other considerations.
    And that is, again, made more difficult when, 
unfortunately, this White House, if they're not punching our 
allies, occasionally seems to be undermining the integrity of 
our intelligence community, which I think is quite different.
    I'm also concerned with some of the President's recent 
actions in terms of threatening to remove security clearances 
from former intelligence officials, what appears to be simply 
based upon their exercising their First Amendment rights. The 
truth is, again, the IC, which has always been valued with its 
independence, cannot give in to that kind of political pressure 
or manipulation. And I'm going to be, again, trying to get you 
both on the record to make sure that both of you and that the 
men and women who work for you will maintain that, maintain 
that independence.
    Finally, I just want to note for the record that tomorrow, 
July 26, will be the sixth year in a row that I and all of my 
colleagues on this committee will honor the men and women who 
serve in silence in the agencies and components of the 
intelligence community. Tomorrow will mark 71 years since 
President Truman signed into law the National Security Act of 
1947, which formed the basis for today's IC.
    It's a small token, what we do tomorrow, in terms of a 
resolution from Congress recognizing that service. But since so 
many of these men and women who work for you will always have 
to serve in some degree of anonymousness, it is important that 
those of us in Congress put forward that message, recognizing 
the IC professionals for the enormous job they do each and 
every day to keep our Nation straight and secure.
    Again, I want to thank both of you for your willingness to 
step forward. We look forward to this hearing and look forward 
to supporting your nominations as well.
    Thank you, Mr. Chairman.
    Chairman Burr. Thank you, Vice Chairman.
    Vice Admiral and Ms. McCarthy, would you please stand and 
raise your right hand? Do you solemnly swear to give the 
committee the truth, the full truth, and nothing but the truth, 
so help you God?
    Admiral Maguire. I do.
    Ms. McCarthy. I do.
    Chairman Burr. Please be seated.
    Before we move to your statements, I'll ask you to answer 
five standard questions the committee poses to each nominee who 
appears before us. They're just a simple yes or no answer for 
the record. Do both of you agree to appear before the committee 
here and in other venues when invited?
    Admiral Maguire. Yes, Mr. Chairman.
    Ms. McCarthy. Yes, Chairman.
    Chairman Burr. If confirmed, do you agree to send officials 
from your office to appear before the committee and designated 
staff when invited?
    Admiral Maguire. Yes, Chairman.
    Ms. McCarthy. Yes, Mr. Chairman.
    Chairman Burr. Do you agree to provide documents or any 
other materials requested by the committee in order for us to 
carry out our oversight and legislative responsibilities?
    Admiral Maguire. Yes, Mr. Chairman.
    Ms. McCarthy. Yes, Mr. Chairman.
    Chairman Burr. Will you both ensure that your office and 
your staff provide such materials to the committee when 
requested?
    Admiral Maguire. Yes, sir.
    Ms. McCarthy. Yes, Mr. Chairman.
    Chairman Burr. Do you agree to inform and fully brief, to 
the fullest extent possible, all members of the committee of 
the intelligence activities and covert actions, rather than 
only the Chair and Vice Chairman?
    Admiral Maguire. Yes, Mr. Chair.
    Ms. McCarthy. Yes, Mr. Chairman.
    Chairman Burr. I want to thank you very much for that.
    We'll now proceed to your opening statements, after which 
I'll recognize members by seniority for up to five minutes of 
questions. Vice Admiral Maguire, I'll ask you to begin, 
followed by Ms. McCarthy. Vice Admiral, the floor is yours.

TESTIMONY OF VICE ADMIRAL JOSEPH MAGUIRE USN (RET.), NOMINATED 
        TO BE DIRECTOR, NATIONAL COUNTERTERRORISM CENTER

    Admiral Maguire. Yes, sir.
    Chairman Burr, Vice Chairman Warner, members of the 
committee: Thank you very much for this opportunity to appear 
before you this morning. I'd like to add my own special thanks 
and appreciation to the efforts of the committee staffers, as 
well as many officers at ODNI and NCTC. I have recently become 
very aware that there's a tremendous amount of work that goes 
into a confirmation hearing.
    Mr. Chairman, I realize that all prior nominees to be the 
Director of the National Counterterrorism Center were well 
known to this committee when they appeared before here for 
their nomination, having served as either acting directors of 
NCTC or a time of their responsibility within the Federal 
Government. I'm honored to appear before this committee today 
to introduce myself and discuss my credentials.
    But first, I'd like to once again, sir, take a moment to 
recognize my family: as you said, my son Dan and my daughter-
in-law Jackie from Chicago; my daughter Catherine, who lives in 
Tampa. In addition to that, I'd also like to recognize one of 
my daughters from a military family, Kelly McRaven, who is 
here, the daughter of Admiral and Mrs. Bill McRaven. While I 
was in uniform, my children lived in Virginia, California, 
Massachusetts, Hawaii, and Florida, and some of those states at 
multiple times. They too have served and given much to our 
country.
    Last, my wife Kathy. She's graduated to supported--excuse 
me. She's guided and supported me for 42 years. Kathy raised 
our children during my many and long deployments and dedicated 
her life to serving the men and women of our armed forces and 
families. For the three years that I was assigned to NCTC, 
Kathy met every single special operator who was severely 
wounded when they arrived at either Walter Reed or Bethesda 
Naval Hospital, sometimes in the middle of the night.
    Then Secretary of Defense Robert Gates awarded Kathy the 
Department of Defense medal for distinguished public service 
for her support to hundreds of wounded service members and 
their families, and she did this throughout our career.
    Although I was the one in uniform for 36 years, she served 
too. Mr. Chairman, I come from a community where service above 
self is expected and there is no greater honor than to be asked 
to lead. So, when offered the opportunity to return to 
government service as the Director of NCTC, there was no other 
answer than yes.
    I'm honored by the trust and confidence of the President 
and the Director of National Intelligence in my ability to 
serve our Nation's counterterrorism enterprise. Few Americans 
have had the privilege that I have this morning. I want to 
thank you for considering my nomination to be the next Director 
of the National Counterterrorism Center and, if confirmed, 
pledge to be transparent, collaborative with this committee and 
members of Congress.
    It was my distinct privilege to serve as the deputy 
director of strategic operational planning when NCTC was led by 
Director Scott Redd and Mike Leiter. From my experience working 
in the interagency and the eventual successes we had, I'm 
convinced that winning this counterterrorism fight can only be 
achieved through a coordinated and synchronized whole of 
government approach. I look to the example of my friend Admiral 
Bill McRaven, the joint special operations commander, JSOC 
commander, during the raid on Osama Bin Laden compound in 
Abbottabad. This highly sensitive operation was not only an 
intelligence community and Defense Department campaign, but in 
truth it was the result of a disciplined interagency process.
    Looking back over the last 17 years since September 11, 
2001, the United States, working with our partners and allies, 
has made tremendous progress in our ability to detect and 
disrupt multi-actor sophisticated terrorist attacks. We've 
built a robust counterterrorism apparatus that has 
significantly increased our ability to protect the homeland as 
well as share valuable information with our own government and 
our global partners. However, significant challenges still 
remain and the U.S. and our allies face an increasingly complex 
terrorism landscape that includes homegrown violent extremists, 
Sunni violent extremist groups such as ISIS and Al Qaida, and 
Shia violent extremists backed by Iran.
    I think it's fair to say that we face more threats 
originating from more places and from more individuals than we 
have had in the last 17 years. Given this threat environment, 
I'm committed to ensuring that NCTC and the broader IC remain 
vigilant, innovative, and adaptive as our adversaries are 
persistent.
    We've made great strides dismantling ISIS, Al Qaida, and 
other terrorist organizations. However, the past 17 years have 
shown us that bullets and drone strikes alone are not 
sufficient to counter violent extremist organizations. To 
ultimately win this fight, we must address the causes and 
conditions that inspire men and women to join terrorist 
organizations and radicalize to violence.
    Mr. Chairman, I will bring all my energy and a sense of 
urgency to this position, leadership experience in both 
government and industry, a reputation for speaking truth to 
power, trust, confidence and personal relationships with many 
of our current national security leaders, and the ability to 
build a strong relationship.
    I will pursue a number of important priorities if confirmed 
as the Director of the National Counterterrorism Center and 
I've outlined these priorities in my written statement for the 
record, and I look forward to discussing these issues with the 
committee in greater length in the future.
    Chairman Burr, Vice Chairman Warner, members of this 
committee, thank you very much for this opportunity. I look 
forward to your questions.
    [The prepared statement of Admiral Maguire follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Burr. Vice Admiral, thank you.
    Ms. McCarthy, the floor is yours.

   STATEMENT OF ELLEN E. McCARTHY, NOMINATED TO BE ASSISTANT 
  SECRETARY FOR INTELLIGENCE AND RESEARCH, DEPARTMENT OF STATE

    Ms. McCarthy. Thank you. Chairman Burr, Ranking Member 
Warner, members of the committee: I am truly honored to appear 
before you today. I am so pleased to be joined by my family, my 
husband of over 22 years, Gordon Hannah, who's always been my 
biggest supporter and my best friend. We are we're joined by 
our remarkable children Liam and Eileen Hannah, of whom I'm 
immensely proud. They inspire me to be a better person, a 
better citizen, and a better servant.
    But I also have to recognize my mother-in-law, my cousins, 
my coworkers, everybody who's standing behind me today. I thank 
you all for your continued support. I don't think I would be 
here without any one of you. Thank you.
    I also want to recognize my esteemed colleague Admiral Joe 
Maguire, the nominee for Director of the National 
Counterterrorism Center, a true patriot who had an incredibly 
distinguished career in the naval special warfare community and 
continues to serve today as the President and CEO of the 
Special Operations Foundation. Joe, I'm thrilled to spend this 
moment in time with you today.
    Admiral Maguire. Thank you.
    Ms. McCarthy. I also want to thank President Trump and 
Secretary Pompeo for their confidence and trust and for 
providing me the opportunity to again serve our country. If 
confirmed, I would be most proud to lead the women and the men 
of the Bureau of Intelligence and Research and to work with the 
agencies in the U.S. intelligence community in support of the 
mission of the State Department.
    Over the last few weeks, I've been asked by many why would 
I want to return to government. The answer is quite simple. I'm 
motivated by service and working hard and I'm passionate about 
the intelligence community and its role in securing this great 
Nation. I also believe that, if confirmed, my broad 
intelligence community experience and deep expertise in the 
business of intelligence can help the Bureau of Intelligence 
and Research grow its impact on the mission of the State 
Department.
    The call to serve and work ethic is embedded in my DNA. My 
father, a former tax attorney and college professor, worked 
literally until the day he died. He was a brilliant lawyer 
whose motivation was not salary, but helping people with their 
tax problems or teaching--teaching and mentoring young people 
interested in pursuing degrees and careers in accounting and 
taxation.
    My mother to this day is always looking to the future and 
identifying things she can do to help, whether it's 
volunteering at the polls or serving in her local nursing home. 
Their experience inspired me to start working at the age of 13 
and my first jobs included delivering newspapers, waiting 
tables and tending bars. Self-actualization for me was doing a 
great job and making others happy.
    My passion for the intelligence community was almost 
immediate. I started as a Soviet submarine analyst during the 
Cold War and learned very quickly about the value of good 
intelligence. I'll never forget the feedback I received from a 
mission commander when he indicated that the mission was a 
success, in large part because of the support I had provided. 
That moment was absolutely cathartic and it was the moment I 
was hooked. Even today, I want to be part of a community that 
informs policymakers, supports diplomats, war fighters and law 
enforcement professionals, and helps them do their jobs better.
    If confirmed, I will bring with me the same desire, plus 
more than 30 years of service across the IC and the private 
sector. When I started in government the late 1980s, people 
were hired by one organization and there they pretty much 
stayed. My career followed a different path, one that has 
provided me a broad understanding of the IC as well as deep 
expertise in the business of intelligence, which includes 
requirements, budget, vision, strategy.
    I've spent a career taking organizations to a new level. In 
order, Senators, to stay within my time limit, I am going to 
refer you to my statement for the record, which provides a 
snapshot of my accomplishments. But I hope in your review 
you'll see that I left every organization better than when I 
started, or at least I certainly tried.
    So I'm absolutely thrilled at the prospect of returning to 
government in support of Secretary Pompeo and the State 
Department and will leverage my broad experience inside and 
outside government and the critical relations I have developed 
throughout my career.
    I will place a special focus on growing I&R's impact on the 
State Department mission. The Bureau of Intelligence and 
Research has a long and very proud history in providing in-
depth all-source analysis, intelligence policy and 
coordination, and analytic outreach that have guided our 
Nation's foreign policy. With its unique mix of Foreign Service 
and civil service professionals, it really plays an outsized 
role in the intelligence community.
    If confirmed, I will work hard to ensure that I&R continues 
to recruit and train the highest quality and diverse staff. It 
would be my first priority to provide them with the tools and 
resources they need to continue to provide value to the 
Secretary and Department policy makers.
    Equally important, I will vigorously defend the integrity 
of the analytic process to ensure independence and unbiased 
analysis--the I&R brand. I will be vigilant that intelligence 
and sensitive intelligence-related law enforcement activities 
are consistent with and support our foreign policy and national 
security objectives.
    Finally, I will leverage my experience in the intelligence 
community, both inside and outside of government, to enhance 
I&R's and the IC's analytic outreach efforts with a focus on 
building I&R's well-established expertise in foreign policy and 
intelligence issues.
    So Mr. Chairman, Vice Chairman, if confirmed I'll bring 
extensive experience across the IC and the private sector, a 
passion to serve, and relevant skills to the position of 
Assistant Secretary for Intelligence and Research. I'll work 
tirelessly to ensure that the I&R continues to provide the 
President, the Secretary of State, and other senior 
policymakers with timely and independent intelligence analysis 
and that our intelligence analysis activities support our 
foreign policy and national security objectives.
    With that, thank you for your consideration and I'm happy 
to answer any questions you may have.
    [The prepared statement of Ms. McCarthy follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Burr. Ms. McCarthy, thank you. I didn't think that 
you could get a higher level of commitment from me because it 
was already high when you came in, but the bartender thing 
really got to me.
    [Laughter.]
    I want to thank both of you for being here, for pursuing 
this request by the Administration to serve your country in one 
more capacity. At this time, I'd like to recognize the Vice 
Chairman for questions.
    Vice Chairman Warner. Well, thank you, Mr. Chairman. And I 
want to also echo. You both bring remarkable talent, remarkable 
background and skills, but I do feel it's necessary--and Ms. 
McCarthy, you've already alluded to this, but we live in 
challenging and unusual times, and I need you both to state 
again clearly for the record that, should you be confirmed, 
that you'll make sure that the men and women who work for you 
and for that matter you in these leadership roles, will make 
sure that the opinions you render will be independent, will not 
be politically influenced, will not be guided by a White House 
who wants one answer versus what your analysts may come up 
with.
    Obviously, you both had records in this field, but I'd like 
you to both address that, that willingness again to speak truth 
to power. Admiral first.
    Admiral Maguire. Well, Vice Chairman Warner, you know, to 
me, if confirmed as the Director of the National 
Counterterrorism Center--and, you know, for my 36 years in 
uniform, I've always believed it's loyalty up and loyalty down. 
So although clearly the Director of the National 
Counterterrorism Center is a political appointee nominated by 
the President, I don't think that there's anything political 
about the position.
    In addition to that, as a leader of the workforce, if the 
analysis indicates that it is what it is, I think that to do 
otherwise and color and shape the information to please other 
folks would be a disservice to them and to the Nation.
    So I absolutely assure you that if the analysis from my 
workforce indicates that there is something that needs to be 
said, no matter what it is, I promise to tell the truth and to 
be able to represent the information and the hard analysis from 
the intelligence community professionals as accurately and as 
forthcoming as I possibly can, and I am more than willing to 
speak truth to power.
    Vice Chairman Warner. Thank you.
    Ms. McCarthy.
    Ms. McCarthy. Senator, I make this promise to always 
provide truth to power and so will my workforce. I will tell 
you that I have a long career of working across the government 
for folks from many parties who've taken on many positions, and 
I'm proud to say that I've always given them the truth.
    Just a short story. I started my career in naval 
intelligence and I will never forget my first briefing to a 
Navy captain, who wanted something that I wasn't going to be 
able to provide him. And I'll tell you, that moment sort of 
sealed in me the importance of providing truth to this captain, 
who might as well have been the Pope. But I gave him my best 
analysis, I had the support of my leadership, and from that 
moment on that's all I've ever provided. That's all we will 
continue to provide.
    Vice Chairman Warner. Well, I have confidence in both of 
you in that, but I did--in these very strange times, it's 
important to get that on the record.
    Admiral, in your previous roles both at NCTC and as head of 
Navy SEALs and Naval Special Ops--I think we talked about this 
a little bit in our visit--you understand the importance of 
strong alliances. Obviously in NCTC, you have a remarkable--
your operation will have remarkable capabilities. But again, if 
we're going to keep America safe you're going to have to rely 
upon tips and information as well from allies and partners 
around the world.
    Again, in normal times I wouldn't have to ask this 
question, but can you speak to that need of maintaining those 
alliances, those relationships, and how in light of the fact 
that at the political level there may be some challenges, where 
we seem to have a White House that sometimes treats our allies 
as adversaries and adversaries as friends, but can you speak to 
the importance of those special relationships in terms of this 
new task you'll have as permanent Director of NCTC?
    Admiral Maguire. Yes, Vice Chairman Warner. You know, being 
a military guy and having some experience, I've always felt 
that you can't have too many friends on the battlefield. And 
right now with the counterterrorism battlefield, we really need 
to have all of our partners and allies.
    I think that for our NATO allies that we have a long 
established relationship with, counterterrorism and terrorism 
is not new to the Europeans. We've really only become very, 
very sensitive to this after 9/11. But I remember in the 1970s 
and the 1980s with the Red Army Faction and Baader-Meinhof and 
all of the terrorism events that they had there, they've got 
tremendous experience in this field, but also information.
    I think the key to success in this battle is intelligence 
and information, and we must maintain the bridges and the 
relationships both ways, to be able to receive and to be able 
to provide; and I think that it is key and essential and I 
intend to--as I said, I have really a reputation for being able 
to build relationships, but I feel that I really don't need to 
do that. My colleagues at NCTC and in the intelligence 
community right now have very deep and very broad relationships 
with our partners, with our allies. And I intend to capitalize 
that and continue to do that, but also recognize that we really 
can't do this alone without them, and to not rely on our 
partners would be a mistake.
    Vice Chairman Warner. Let me drill down on more of a 
technical question. You used to be head of the NCTC's 
Directorate of Special Operations Planning. Will you commit 
to--we get kind of into jurisdictional challenges here, but we 
really need, this committee needs, those DSOP documents to 
perform our oversight functions, particularly since this is 
mostly funded out of the NIP.
    Will you commit to work with us in making sure that this 
committee has access to those documents on a going-forward 
basis?
    Admiral Maguire. Yes, Senator. As you know from the 
Intelligence Reform and Terrorism Prevention Act, the Director 
of Strategic Operational Planning is tasked by the President 
and works for the President and the Executive Office of the 
President. I am acutely aware and will do everything in my 
power to make sure that this committee provides oversight, and 
I will ensure that I will provide all the information necessary 
to this committee.
    Vice Chairman Warner. Well, again, Mr. Chairman, I want to 
thank you, and I want to thank both the witnesses for their 
long-term service to our country and keeping Americans safe. 
You're going to take on very important jobs at a very important 
time. Thank you.
    Admiral Maguire. Thank you, Vice Chairman.
    Chairman Burr. Senator Blunt.
    Senator Blunt. Thank you, Chairman.
    Great to have both of you here for these two really 
critically important jobs. Admiral Maguire, when we were by the 
office the other day, we talked a little bit about the 
importance of using automation to modernize the way the NCTC 
narrows down the information that analysts should be looking 
at. What do you see as the future of that and what kind of 
particular thing would you want this committee, as it supports 
you in that effort, to understand why that matters that the 
automation effort, some level of artificial intelligence----
    Admiral Maguire. Yes, Senator Blunt.
    Senator Blunt [continuing]. Could be a step up?
    Admiral Maguire. The main thing that I've heard from the 
workforce in my time engaging with those professionals in NCTC 
is the challenge with the volume of information that we have. 
As you know, NCTC is involved in watch-listing in the Terrorist 
Identity Data Environment, where there are literally millions 
of parts of information in there. And in order to query it, 
sometimes it takes longer than it needs to be.
    In addition to that, most of the information in that 
databank right now is biographical in nature, and as we move 
more to biometric information, we will need additional 
resources to be able to go and insert the biometric 
information, because the biographical information can be 
spoofed. You could have a false name, a false passport, a false 
identity. But it's tough to spoof the biometrics.
    So as we go into the 21st century systems, we need to make 
sure that we have things that are readily available that the 
analyst can query and receive in a very, very timely manner, 
because sometimes time is of the essence. Right now, I think 
that the systems we have are good, but as we look to the future 
and shifting to biometrics, I think that we're also going to 
need some support and resources for the computers that we need 
to do that.
    But mostly I feel it's critically important to let the 
computers compute, and right now there's an awful lot of human 
intervention, and when you have human intervention there's also 
an opportunity for human error.
    Senator Blunt. So the more the computers compute, the more 
the analysts can analyze?
    Admiral Maguire. Well, yes, sir, the more they can analyze. 
And also, we might be able to achieve some efficiencies in 
manpower if we could allow the processing to do that for us.
    Senator Blunt. So, Ms. McCarthy, Senator Warner and I 
represent the two big installations for National Geospatial. We 
got a chance to see your work there as the chief operating 
officer. So at least for me, I've had more of an opportunity to 
look at what you do on a day-to-day--or what you're capable of 
on a day-to-day basis. Certainly the job you're taking is sort 
of an intersection of diplomacy and intelligence.
    As we look at what China is doing, the aggressive efforts 
in China, particularly the aggressive technical efforts, do you 
want to comment on whether that in your opinion is in line with 
a state just trying to advance itself economically? Or does 
that indicate a more aggressive strategy on the part of China 
in the neighborhood they live in and in the world?
    Ms. McCarthy. Senator, thank you for your question. I will 
tell you, consistent with the rest of the intelligence 
community right now, I believe China is one of our biggest 
focus areas. It certainly should be in terms of the threat now 
and the threat looking into the future. So I know, should I be 
confirmed for this position at I&R, that we will absolutely 
look at investing the resources that are necessary to continue 
to address this issue from a foreign policy perspective.
    I'll tell you, given my experience at NGA, I&R also has a 
role in geography and mapping and working in the development of 
foreign policy. They have an office of the geographer and that 
is a part of I&R. And so I'm actually very excited to be able 
to work with those folks and to understand more of their 
support to the policy area, specifically as it relates to 
China, and to work my connections with the National Geospatial 
Intelligence Agency.
    Senator Blunt. Great. Thank you.
    Thank you, Mr. Chairman.
    Chairman Burr. Senator Feinstein.
    Senator Feinstein. Thanks very much, Mr. Chairman.
    Mr. Maguire, I enjoyed my time with you in the office. And 
I've been thinking about it and I just want you to know what I 
treasure about the agency, because I read its intelligence. I 
appreciate the forward-leaning nature of some of it and the 
fact that over the years--it's not necessary that all 
intelligence agencies agree, and that I got a somewhat very 
positive and good perspective from the intelligence overall.
    I don't want to see that blunted. I appreciate the 
independence of the agency from other agencies. You're a Navy 
SEAL. I assume you're strong and independent, and I hope this 
will become and be a strong and independent agency. Would you 
comment, please?
    Admiral Maguire. Yes, Senator. To me, I think the Senate 
did a wonderful job with the Intelligence Reform and Terrorism 
Prevention Act in giving the authorities to the center. But I 
look at the Director of the National Counterterrorism Center 
really as the honest broker. And as you said, I think that 
there will be times when there might be differences with the 
Intelligence Committee--I mean community--on opinion.
    I think that if that's the case, I mean, NCTC's job is to 
analyze all intelligence and then make the best recommendation. 
But if you get to a point where you've got two members of the 
IC, perhaps with various viewpoints, I think both of those need 
to be presented. NCTC exists because prior to 9/11, as you 
know, the FBI and the CIA did their own intelligence and, you 
know, the White House had to sort it out. NCTC's job is to 
receive all the intelligence and to sort it out.
    So I will do my utmost to do that. And when it comes to 
leadership, ma'am, you can count on my leadership at the center 
to do the best I can to make sure that differences are resolved 
and we have a coordinated staffed effort and present it to both 
the Executive Branch and to the Legislative Branch.
    Senator Feinstein. Well, let me thank you for that. I meant 
to ask it in the office and really didn't. But you're on the 
record. This is very important to me.
    Admiral Maguire. Yes--yes, Senator.
    Senator Feinstein. Because I really prize your products, 
and I want you to know that. And if they're slightly different, 
for me that's important; and it gives, I think, the oversight 
body an opportunity to look more deeply into something. So I 
hope you'll continue that independent tradition and I suspect 
you will.
    Admiral Maguire. Yes, Senator.
    Senator Feinstein. Thank you.
    Admiral Maguire. You're welcome.
    Senator Feinstein. Thanks, Mr. Chairman.
    Chairman Burr. Senator Lankford.
    Senator Lankford. Mr. Chairman, thank you.
    To both of you, thank you for stepping back up again. It is 
a difficult decision because you know what you're walking into 
in many ways because you've both served in the government 
before. And especially going through the nomination process, 
where they ask you to get everything in the world you've ever 
done, said, thought or been and to form a list of that. To be 
able to put that on the public record is no simple thing to be 
able to do. And I appreciate you doing the work on that.
    Mr. Maguire, let me start with you. I want to ask you 
specific questions. We've worked before with Nick Rasmussen, 
who was always very open with us and was very engaged with us 
when we asked questions and gave us great detail. When he was 
leaving, he made a comment about that he was concerned about 
analytical lanes in the road for NCTC and trying to be able to 
make sure that we have clear lanes in the road and everyone 
kind of knows their job and only does theirs, but also we're 
careful where we have overlap to be able to solve those 
problems.
    Help me understand where you're picking this up and running 
with the ball at that point, trying to deal with the analytical 
lanes in the road?
    Admiral Maguire. Well, Senator Lankford, I think that what 
we need to do is take a good look at redundancies. Resources 
are very, very precious and if we have overlap and dual, then 
that needs to be addressed. I think that lanes of the road are 
critically important, but also different members of the 
intelligence community bring a different culture to their 
assessment as well. So at the National Counterterrorism Center, 
as you know, we receive, we analyze and integrate all 
intelligence possessed.
    So as far as the lanes of the road, I see two things. One, 
as we go forward, realizing that there are other priorities 
right now that are being raised and the counterterrorism 
community and the structure might perhaps be put on the back 
burner right now. So I think that what we need to do is make 
sure that we reduce redundancies, maximize resources, and stay 
in the lane of the road.
    But if there is double-tap, I think it's also not a bad 
thing to have a co-author opinion presented to the committee.
    Senator Lankford. By the way, which I'd agree, the 
redundancy is helpful to be able to get it, but every time we 
do redundancy that also means we're not paying for something 
else that needs to be done.
    Admiral Maguire. Yes, Senator.
    Senator Lankford. So the balance that this committee will 
have as we walk through the process and the insight that we'll 
need from you is: We have redundancy in this area; we could use 
those resources in another area more efficiently. You're going 
to see those more than we will. And the polite thing to say is 
we just have a different culture and we're going to bring a 
different perspective to it and it's helpful to have multiple 
perspectives when you're making policy decisions, and I agree.
    The difficult thing to do is to say we have redundancy 
here, we need the resources in another place, we're underfunded 
in this area and we could use the help there.
    Admiral Maguire. Yes, Senator. I have the benefit of being 
the resource director of strategic assessments for United 
States Special Operations Command from 2001 to 2004. So I 
realize how to identify requirements and make sure that we have 
the appropriate resources against that.
    If confirmed by the Senate, what I intend to do is get 
smart, realize--to take a good look, what are the highest 
priorities that we have within the National Counterterrorism 
Center and the IC, aligning the manpower and the resources to 
that, and taking a look at where we can take risk. And if there 
is redundancy, obviously I agree with you, we can't afford to 
have redundancy. And then we need to make a decision.
    Senator Lankford. The size of the directorates that are 
there in your responsibility, are you concerned about the size 
of any one of them? Do you think that there's one that needs to 
be larger or smaller when you're going into this?
    Admiral Maguire. Well, Senator, I think that--I know that 
there might have been some criticism on how did the National 
Counterterrorism Center get to be the size it is, and I've 
discussed that with the acting director and the other folks in 
the center. My response to that is that the size of the force, 
the size of the workforce, is appropriate because of the tasks 
that we've had.
    When I was there in 2009, we had about 700 people at the 
National Counterterrorism Center, but we all remember in 
December of 2009 when we had the Underwear Bomber that tried to 
blow up the aircraft over Detroit. As a result of that, then we 
stood up the Pursuit Group, which is about 100 people. In 
addition to that, we've also had additional requirements for 
watch listing and Terrorist Identity Data Environment.
    And with that requirement, we had to place the additional 
resources. So to me, I think it's appropriate. But once again, 
Senator, if confirmed, I'll get in there, I'll get smart, I'll 
take a good hard look. And then if I have to make some tough 
decisions, I understand that I will.
    Senator Lankford. We want to help you with that through the 
process. Again, we need NCTC to do a great job for the benefit 
of the entire country. We need that--we need that wisdom and 
insight that's there.
    We need it also to be as efficient as possible, because 
every dollar we spend in redundancy or waste in an area is 
another dollar we're not spending somewhere else.
    Admiral Maguire. Yes, Senator Lankford.
    Senator Lankford. Two more quick comments. Ms. McCarthy, a 
quick question for you. You've been in government work, then 
you've stepped outside to do a think tank, and now you have the 
disadvantage of being in the think tank presenting ideas; now 
you have to implement those.
    So what are you bringing in that mode that comes from the 
outside, from the think tank, that you look at immediately and 
say this is something I need to apply?
    Ms. McCarthy. So thank you, Senator. There's a couple of 
areas. I've actually worked for--I'm working for a non-profit 
now and then I also ran a think tank a few years ago. And from 
those experiences, I'm actually bringing I think two sort of--I 
understand these areas better than I did before when I was in 
government.
    While at the Intelligence and National Security Alliance, 
we are the IC's think tank. And so we brought together the 
public, private, and academic sectors to focus on some tough 
challenges that were usually posed by the Office of the DNI or 
other senior leadership across the IC, to include acquisition 
reform or security clearance reform, and to provide a table 
where you can have that sort of discussion I think is going to 
be very beneficial as we look at State I&R's role in analytic 
outreach and the fact that it is required. It supports not only 
the State Department, but the rest of the IC, in bringing 
together the best in academia, the best in the private sector, 
to also talk about some big issue areas that will affect 
foreign policy.
    So that's one area where I have some strength. In my 
current position at Noblis as the Vice President for 
Intelligence and Analytics, my focus primarily is looking at 
the tools and resources that can be used to help the analysts. 
So that includes artificial intelligence and working with data 
science. And so I know firsthand with a little investment what 
we can do in terms of providing new capabilities to support our 
analysts.
    Senator Lankford. Thank you.
    Chairman Burr. Senator Wyden.
    Senator Wyden. Thank you, Mr. Chairman.
    I, too, enjoyed very much visiting with both of you. My 
colleagues have been talking about the importance of speaking 
truth, truth to power, and the White House apparently considers 
when you all stand up for truth that this is somehow going 
rogue. This is their analysis of it. I consider it patriotism 
and duty; and I was pleased to meet with both of you.
    I want to take a particular example, the travel ban, and 
walk through with you, Mr. Maguire, how you would go about 
handling this. The executive order refers repeatedly to the 
DNI, and it requires a number of assessments from the Director 
of National Intelligence. And these are assessments where the 
DNI could look to the director of the National Counterterrorism 
Center for counsel. So this is the travel ban, seven times 
refers to the DNI.
    How are you going to--if you're asked for your counsel on 
the travel ban, how are you going to make sure that any 
assessment is made independent of political pressure?
    Admiral Maguire. Senator Wyden, thanks for the question, 
and that was one that I did ask the staff for a little bit of 
guidance before I appeared before this committee today. And I 
was informed by Russ Travers and my colleagues, or my potential 
colleagues at the National Counterterrorism Center, that the 
travel ban--regardless of the travel ban, it doesn't matter 
what country anybody who's requesting entry into the United 
States is from. The process is the same and anybody who's 
entering--who's requesting entry into the United States, goes 
through a rigorous check within the National Counterterrorism 
Center to look for a nexus in counterterrorism.
    I've asked specifically, Would there be any change in the 
process with that, and they said everybody's the same; no 
matter what country you come from, whether they're on the 
travel ban or whether they're from an ally, if they're coming 
and they're requesting, then the process is absolutely the same 
for everyone no matter where they come from.
    And to me, that's the way it's got to be. We just have to 
make sure that we are deliberate and we just treat everybody 
equally. But the process is the process, and I think the 
process is very deliberate and I think the process is very 
thorough. And I don't see any reason to change that just 
because of the travel ban and I think that the folks who've 
done that for a living right now at NCTC, DHS, State 
Department, and everybody else have done a very good job.
    Senator Wyden. I appreciate your statement that you want to 
do this by the book. This is a very politicized executive 
order. So I'm sure we're going to have further discussions 
about it. And I don't think the executive order refers to the 
DNI by osmosis. There's a reason for it. I think your counsel 
is probably going to be asked about this, and it is going to be 
in a highly pressurized, politicized situation.
    Let me ask you one other question. You all are responsible 
for TIDE, a database of known or suspected terrorists with over 
a million and a half people, including 16,000 U.S. persons. I 
would be the first to say this performs useful functions and 
valuable intelligence as a tool.
    At the same time, my view is security and liberty aren't 
supposed to be mutually exclusive. We're supposed to do both. 
So how would you, if confirmed, make sure that we get the 
valuable intelligence while at the same time not pulling 
innocent Americans into this database?
    Admiral Maguire. Senator Wyden, the National 
Counterterrorism Center, in particular the folks who work in 
TIDE, have got a very disciplined process. They've been trained 
and they work closely to make sure that we are adhering to the 
law. We also have a very good legal team that makes sure that 
we are in compliance.
    For the number of folks that are in there, there had to be 
a terrorism nexus. There is an annual audit in TIDE that is 
conducted by those at the National Counterterrorism Center, and 
if they find something that's in that center that should not 
be, then that individual or that process is removed.
    So to me, I look at two things. One, my job potentially as 
the Director of the National Counterterrorism Center, if 
confirmed, is to do everything I can to make sure that I keep 
the country safe. In addition to that, as an American I need to 
make sure that we stay true to our American values and protect 
civil liberties and our rights, and I intend to do that.
    Senator Wyden. I'll ask you some more questions about that.
    One question for you, Ms. McCarthy. When the CIA ran its 
torture program, it told our ambassadors that they couldn't 
discuss it with anybody at the State Department. Now, it's 
I&R's job to support our ambassadors and make sure that the 
Department reviews intelligence activities, including covert 
actions. Can you tell us, consistent with the fact that this is 
an open session, how are you going to make sure that happens?
    Ms. McCarthy. Senator, thank you for your question. That is 
a very important function that I&R serves, is to ensure that 
our ambassadors understand their roles in intelligence 
oversight, because they play a very important role in actually 
concurring or nonconcurring with these sorts of operations. And 
I will take that job very seriously and ensure that I&R 
continues to provide that training and regular intelligence 
update on a 7 by 24 basis, to ensure that they know everything 
they need to know in making these decisions that are based on 
risk.
    Senator Wyden. Thank you, Mr. Chairman.
    Chairman Burr. Senator Cornyn.
    Senator Cornyn. Congratulations to both of you on your 
nominations. Admiral, it was good to visit with you yesterday. 
As I told you then, the fact that you come highly recommended 
by Admiral McRaven and I know worked side by side with him for 
maybe 35 years----
    Admiral Maguire. Yes, sir.
    Senator Cornyn [continuing]. Has a lot of significance to 
me. But I appreciate the chance to visit a little bit 
yesterday.
    But you talked about your long-term service in the military 
and the fact you've developed very good relationships with 
others like the chief of staff or the SecDef and others. 
Obviously, your role at CTC will be different. You'll be 
focused on terrorism threats, as opposed to, let's say, 
existential threats to the United States Government.
    How do you view that in the larger context of national 
security? As an isolated focus, or is it somehow--is there a 
continuum when you look at the range of threats confronting the 
United States?
    Admiral Maguire. Well, Senator Cornyn, I look at it this 
way. I've got close personal relationships, as you know, with 
the Secretary of Defense, the Chairman, the Undersecretary of 
Defense for Intelligence, and others, the JSOC commander, the 
SOCOM commander, the CENTCOM commander. So as far as that side, 
the part of the house that's really doing the kinetic work, 
I've got very close relationships.
    As the director of the National Counterterrorism Center and 
also as really the director of strategic operational planning 
in the whole of government, I need to go out and make sure that 
I have the relationships and capitalize on the relationships 
that are already there with the other members of the 
interagency, as well as the Legislative Branch, and to bring 
the whole of government to that.
    So I think that, as I said, statutes give you authority, 
but trust and partnerships produce results, and leadership is 
all about results. So I intend to, no, not take for granted the 
relationships I have already, but actually focus on renewing 
and building relationships with the other leaders and the other 
members of the intelligence community to make sure that we have 
a whole-of-government approach in this counterterrorism 
enterprise.
    Senator Cornyn. Before 9/11, or I should say after 9/11, 
our 9/11 Commission documented the stovepipes that we had, 
particularly between law enforcement and our intelligence 
community, in identifying security threats and sharing of 
information across the government. Sometimes I worry, because 
the intelligence community is so large, with 17 different 
components and now post-9/11 with new layers of responsibility, 
like the ODNI, that we are creating more bureaucracy and 
stovepipes within the intelligence community.
    Are those concerns justified in your view or not?
    Admiral Maguire. I think you've always got to be careful 
and be mindful that people have a tendency sometimes not to 
share. But I think that the Intelligence Reform and Terrorism 
Prevention Act did a very good job of giving the authorities to 
the National Counterterrorism Center.
    You know, as the primary organization in the United States 
for analyzing and integrating intelligence acquired or actually 
possessed by the United States, the job of the National 
Counterterrorism Center is not only to possess it, but to 
ensure that all stakeholders, everybody who has a need to know 
and a requirement to do their job, whether at the kinetic side 
of the house or the non-kinetic side of the house, has access 
to and receives the information.
    So I think that you must always be mindful. The lessons of 
9/11 are still clear to me. I grew up in New York City. As a 
young boy, I watched the Twin Towers go up. Three weeks after I 
got my first star, I saw them go down. So it's very, very real 
to me.
    And I think it's absolutely essential that we share within 
the intelligence community stovepipes, but also, to Vice 
Chairman Warner's question earlier, we need to make sure that 
we also share with our partners and our allies. Because you 
never know where the information is going to come from, and 
information and intelligence are key and essential to the 
success of this campaign.
    Senator Cornyn. Admiral and Ms. McCarthy, I'd like to get 
both of you to respond to this. Do you view it as part of your 
responsibility to develop a consensus when it comes to 
intelligence? Because rarely is intelligence a lead pipe cinch. 
In other words, it's rarely for certain. That's why the 
intelligence community talks about ``we assess'' this, that, 
and the other, ``we have this level of confidence'' and the 
like.
    But what is the--Ms. McCarthy maybe you could start: What's 
your role in trying to develop consensus? Or do you feel like 
you have to present competing points of view and opinions and 
perspectives from different segments of the intelligence 
community?
    Ms. McCarthy. Senator Cornyn, I&R has a long history of 
being an independent actor and providing independent analysis, 
and many times has been at odds with--I mean, dating back to 
the Vietnam War--has been at odds with some of its counterparts 
in the IC.
    The good news is that the IC is an environment where you 
can have those discussions. There's processes in place to 
ensure that competing views are represented, whether they are 
in briefs that go to the President, the President Daily Brief, 
or mostly through the National Intelligence Estimates through 
the NIC. And so there's always an opportunity to provide 
competing views.
    So I don't believe, should I be confirmed, that my role at 
I&R will necessarily be getting consensus for the position that 
we may take on an intelligence issue, but certainly ensuring 
that it's represented and heard and represented in those 
documents that are shared across the IC.
    Senator Cornyn. Admiral.
    Admiral Maguire. Senator Cornyn, I think that's why we're 
here. When I was in a leadership position, I always asked my 
staff: I want something that's well staffed and I want a 
coordinated, recommended opinion from the staff, not give it to 
me and have it sorted out.
    I mean, as we know from the lessons from 9/11, we had 
different departments and agencies providing the information to 
the White House, and the White House had to sort it out. That 
didn't work so good.
    So the obligation to make sure that there is a concerted 
and a focused recommendation to both the Executive Branch and 
to the Legislative Branch is one that I take seriously and will 
do my darnedest to deliver.
    Thank you.
    Senator Cornyn. Thank you.
    Chairman Burr. Senator King.
    Senator King. Thank you, Mr. Chairman.
    First, I want to thank you for your willingness to serve. 
Second, I want to emphasize that you two are taking on two of 
the most important jobs in the United States Government. The 
responsibility is awesome and incredibly important. In an age 
of terrorism, and we are not out of the age of terrorism, 
intelligence is the first line of defense. If we don't know 
what's going to happen, it's going to be very difficult to 
prevent. So intelligence is incredibly important.
    I am going to now ask a couple of questions that may sound 
topical, but my colleagues will testify that I've been asking 
these same questions for five years. They have nothing to do 
with who's President.
    The grave danger in intelligence is shading the data to 
meet the perceived policy needs of whoever is in charge, and 
this goes back as far as we can go. In fact, I would recommend 
to you H.R. McMaster's book, ``Dereliction of Duty,'' the 
incredibly insightful account of what happened in Vietnam and 
the failure in many ways of communication to the higher 
echelons, to the policy makers.
    So, Admiral Maguire, one of your strongest qualifications 
may also be a disadvantage and that is your long career in the 
military, where chain of command, following orders, is an 
absolutely important part of the job. That's what you've been 
trained to do for 30-plus years. Assure me that you are not 
going to follow orders, that you are going to chase the 
intelligence where it leads, report it as it appears, and not 
shade any information because of pressure?
    And it may not even be overt pressure. Often it's human 
nature to want to give the boss what they want. So, it doesn't 
have to be shade the material. You've got to work within your 
agency to counteract the human tendency to provide information 
that's pleasing to those higher up. Talk to me about that 
issue?
    Admiral Maguire. Well, Senator King, as I said, I don't 
need any reminder about the stakes that the Nation is under. 
I've lost friends in this fight and I realize that it's very 
real. I concur with your comment that, although we've made 
tremendous strides in the last 17 years, we're still posed 
tremendous threats to the country.
    My job as the Director, if confirmed, is to make sure that 
I provide truthful and accurate information. And if not, then 
the stakes could be we make a decision that is incorrect and it 
could cause harm to the Nation and to our interests.
    In addition to that, to lead the workforce--if I have a 
workforce that has an opinion, for me to color or change that 
opinion before it goes up above my level to more senior people, 
I think I would completely lose the workforce. But most 
importantly, if I colored any judgment or provided any 
information to anybody that was not truthful and accurate and 
something happened, then I also have to live with that. And 
I've been to Arlington National Cemetery and to other 
cemeteries around the country and I realize that, you know, I'm 
here to make sure that I do my darnedest to defend the Nation 
and to do what's right, and I intend to do that, sir.
    Senator King. Thank you. I really appreciate that, and I 
look forward to working with you in that capacity.
    Admiral Maguire. Thank you, Senator King.
    Senator King. Ms. McCarthy, the same kind of question. A 
great quote from one of your predecessors. Mr. Ford said: ``The 
analysts at I&R are a curmudgeon-like group who delight in 
being different and getting to the body of something and not 
caring what other people think.'' That was Carl Ford back in 
2004.
    I'm not sure you're sufficiently curmudgeon-like.
    [Laughter.]
    Assure me on that point.
    Ms. McCarthy. Oh, I am curmudgeon-like. Senator, again, 
should I be confirmed, I think I&R, that's their brand, is 
independent analysis. They have a long and very respected 
history of not being persuaded by those who may take on 
positions----
    Senator King. Many people feel in Iraq they got it better 
than anybody else.
    Ms. McCarthy. I think the record shows that they did get it 
better than anyone else, and they went through the IC's 
processes to assure that, certainly, that information was 
shared, and then certainly it's up to the policy maker to 
determine what they're going to do with that.
    Senator King. But one line, though, your last sentence of 
your opening statement: ``Our intelligence activities must 
support our foreign policy and national security objectives.'' 
I hope you mean by providing good intelligence, not providing 
justification for objectives that somebody else has set.
    Ms. McCarthy. Absolutely, sir. This is not to shade the 
intelligence to support our foreign policy objectives, but to 
provide our foreign policy decision-makers with the truth.
    Senator King. Well, the other piece in your answers--and 
again, it's good news, bad news--you mentioned the proximity to 
the Secretary of State. You use that term, ``proximity.'' 
That's good news; that means you're close to policy makers. The 
bad news is you could be subject to the kind of pressure--
subtle, not necessarily overt--to shade the data.
    Give me your thoughts.
    Ms. McCarthy. So, Senator, again, I think all of my 
predecessors had that relationship with the Secretary and have 
had a history of not necessarily bending to political or 
positions that may not be in line with what the intelligence 
shows.
    So again, I believe that my access to the Secretary and 
policy makers is going to help me understand more about what 
their priorities are, so that I can then work within I&R and 
across the intelligence community to ensure that collections 
are then focused on these areas, so that we can provide him or 
her with the truth. And so, proximity is more about being able 
to guide collections than it is about providing them what they 
want to hear.
    Senator King. Well, I appreciate again both of you being 
willing to take on this job. If you're ever in doubt, the 
actions of Dan Coats last week are a demonstration of how these 
jobs should be done.
    Thank you, Mr. Chairman.
    Chairman Burr. Thank you, Senator King. I will say that 
Senator King's question was a first for me; it's the first time 
I've ever heard a nominee questioned because they weren't 
curmudgeon enough to match that of the Senator.
    Senator King. I said I worried--I also said in the hearing 
I worried that Dan Coats was too nice a guy, so.
    [Laughter.]
    Chairman Burr. Vice Chairman.
    Vice Chairman Warner. I would simply say, I think you've 
heard from a lot of us, we're counting on you both to be 
straightforward, speak truth to power, make sure that you're 
not influenced by political--I think you both bring remarkable 
records and I just want to go on record, Mr. Chairman, as I 
hope we can move these nominees as quickly as possible, and 
appreciate you holding this hearing.
    Chairman Burr. Mark, thank you.
    It's the intent of the Chair to actually do that, to move 
these nominees, hopefully, out of committee next week with the 
committee's help. And I want to thank--for planning purposes--
thank all of you. But, for planning purposes, any member of the 
committee who wishes to submit questions for the record after 
today's hearing, please do so by the close of business today. I 
just want to reiterate that.
    To both of you, thank you. And, Joe, I got to tell you that 
I am a morning prolific reader. I come in early, try to get it 
out of the way before our day job starts. The questions that 
you heard on size and, Ms. McCarthy, the amount of analysts--
trust me, if you're in Washington today and you're an analyst, 
if you're not employed, something is really, really bad-wrong, 
because we have hired a boatload across all the agencies.
    When this committee sort of looks at the landscape and sees 
all of those, we automatically respond to every agency: Have 
you looked at your size? Have you looked at the requirements? 
Does it match?
    But I got to tell you, Joe, that, you know, any morning I 
could get up and I could read six products on the same thing, 
and I don't look at it and say that that's not valuable to have 
six different analysts. But do remember that the root product 
they work from is the product that comes out of NCTC. So the 
accuracy on the front end is that much more important because 
you've got other folks that are dicing and slicing that. And 
it's those products that find its way to my desk, to the 
President's desk, to the Vice Chairman's desk, that influence 
then the policy decisions that we make.
    So you're right. I'm grateful to you. Accuracy is 
incredibly important. If we're going to screw up, let's all 
screw up together. But let's make sure that it was our intent 
to get it right. And that way, whether its I&R or any other 
piece of the IC community, the basis with which they have 
analyzed product and produced reports for policymakers comes 
from credible, quality foundational reporting that's done by 
NCTC.
    So I want to thank both of you for your willingness to 
serve, for your willingness to expose yourself to our committee 
members. We will move your nominations as quickly as the Senate 
can possibly do, which is not as fast as we might wish, but the 
Vice Chairman and I will try to facilitate that as fast as we 
can.
    Once again, thank you to you and your families.
    This hearing is adjourned.
    [Whereupon, at 10:48 a.m., the hearing was adjourned.]

                         Supplemental Material
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
  

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
